  STATUS OF OPERATING ADMINISTRATIONS’
 PROCESSES TO CONDUCT LIMITED QUALITY
REVIEWS OF RECOVERY ACT RECIPIENT DATA

         Department of Transportation

         Report Number: MH-2010-002
         Date Issued: October 6, 2009
           U.S. Department of
                                                           Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Status of Operating Administrations’               Date:    October 6, 2009
           Processes to Conduct Limited Quality Reviews of
           Recovery Act Recipient Data
           Report Number MH-2010-002
  From:    Calvin L. Scovel III                                    Reply to
                                                                   Attn. of:   J-1
           Inspector General
    To:    All Secretarial Officers
           Federal Aviation Administrator
           Federal Highway Administrator
           Federal Railroad Administrator
           Federal Transit Administrator
           Maritime Administrator

           This report presents our audit results of the Department of Transportation
           Operating Administrations’ plans for ensuring Recovery Act 1 fund recipients
           submit accurate, complete, and timely data on the use of these funds, as required
           by Section 1512 of the Recovery Act. Office of Management and Budget (OMB)
           guidance states that starting October 22, 2009, Federal agencies are to perform a
           limited data quality review of recipient information and notify the recipients of
           two key data problems—material omissions and significant reporting errors. Our
           audit objective was to determine whether the Department’s Operating
           Administrations have established processes to perform such reviews and notify
           recipients of the need to make appropriate and timely changes.

           We found that the Department’s Operating Administrations overseeing the
           implementation of the Recovery Act—Federal Aviation Administration (FAA),
           Federal Highway Administration (FHWA), Federal Railroad Administration
           (FRA), Federal Transit Administration (FTA), and Maritime Administration
           (MARAD)—have taken steps to ensure that Recovery Act recipients comply with
           Section 1512 reporting requirements. These steps range from conducting outreach
           to recipients regarding the specific reporting requirements to drafting processes for
           performing limited data quality reviews. Each Operating Administration aims to
           have a process in place before conducting the reviews, and as of
           September 25, 2009, two of five Operating Administrations have drafted

           1
               American Recovery and Reinvestment Act of 2009.
                                                                                                           2


processes. However, it is too early to determine whether these processes will
adequately identify omissions and significant reporting errors.

BACKGROUND
Section 1512 of the Recovery Act requires that not later than 10 days after the end
of each calendar quarter, each recipient that received Recovery Act funds from a
Federal agency submit a report to that agency to include the following: (1) the
amounts spent on projects or activities; (2) a list of projects or activities funded by
name, including a description and completion status; (3) estimates of the number
of jobs created and retained by those projects or activities; and (4) details on sub-
awards and other payments. On June 22, 2009, OMB issued guidance 2 to provide
Federal agencies and funding recipients with information to effectively implement
Section 1512 reporting requirements. The guidance requires that prime recipients 3
enter their data to www.FederalReporting.gov, 4 the online Web portal for
collecting all Recovery Act recipient reports beginning on October 10, 2009.

The guidance also requires that 22 to 29 days after each quarter (e.g.,
October 22, 2009, to October 29, 2009), Federal agencies perform a limited data
quality review of the submitted information and notify recipients of two key data
problems—material omissions and significant reporting errors. No later than 30
days following the end of the quarter (e.g., October 30, 2009), the detailed
recipient reports will be made available to the public on the www.Recovery.gov
website. Figure 1 presents OMB’s timeframes of key Section 1512 reporting
activities.




2
    OMB Memorandum for the Heads of Departments and Agencies, M-09-21, “Implementing Guidance for
    the Reports on Use of Funds Pursuant to the American Recovery and Reinvestment Act of 2009,”
    June 22, 2009.
3
    Prime recipients are non-Federal entities that receive Recovery Act funding as Federal awards in the form
    of grants, loans, or cooperative agreements directly from the Federal Government.
4
    Reporting recipients and reviewing Federal agencies must be registered as authorized parties prior to
    submitting or receiving recipient reports on www.FederalReporting.gov. Registration opened on
    August 17, 2009.
                                                                                                                                    3


                            Figure 1. Recipient Reporting Timeline
 No less than 35 days                                                                                                      30 days after
                           1-10 days after the end of        11-21 days after end of       22-29-days after end of
 prior to the end of the                                                                                                   end of
                           Quarter                           Quarter                       Quarter
 quarter                                                                                                                   Quarter

                                                                Prime
                           Prime Recipients                   Recipients                     Agency                           Recipient
                           & Delegated Subs                    Review                       Review of                          Reports
                              Enter Draft                       Data                          Data                          Published on
                            Reporting Data                    Submitted                     Submitted                       recovery.gov
                                                              By Sub(s)


                                                                               Prime                           Prime
           Prime and Sub
                                                 Initial                    Recipients &                    Recipients &
             Recipient
                                               Submission                    Subs Make                       Subs Make
            Registration
                                                                            Corrections                     Corrections


                                               By 10 days
                                                after end
                                               of Quarter

                                                                Agency “View Only”              Agency Comment Period

                                                        Recipient Report Adjustments Possible
Source: Office of Management and Budget



  Operating Administrations Expect to Have Processes in Place in
  Time to Conduct Data Quality Reviews
  With the October 10, 2009, deadline fast approaching for Recovery Act fund
  recipients to start submitting data on the use of these funds, the Department and
  Operating Administrations have been proactive in assisting recipients in meeting
  the Recovery Act reporting requirements and deadlines. For example, FTA
  officials alerted all of its Recovery Act prime recipients via email of registration
  requirements and conducted webinars to clarify reporting requirements. Further,
  MARAD officials contacted all 70 of its grant recipients by telephone to
  encourage registration and reporting. In addition to these efforts, Operating
  Administration officials inserted language in grant agreements requiring
  compliance with Section 1512 reporting requirements.

  Officials from all the Operating Administrations told us that they will conduct data
  quality reviews of recipient data, notify recipients of errors, and address systemic
  or chronic reporting problems when data become available. At the time of our
  review, the Operating Administrations were in various planning stages for
  conducting the reviews.

        FAA has prepared a process that includes a description of the data entry
         process, agency validation processes, validation rules, and advanced
         validation using statistical analysis.
                                                                                 4


    FTA has drafted a process for conducting data quality reviews, which
     includes tasks ranging from conducting an initial overview of the reports to
     identify blank data fields to preparing analysis of data submitted.

    FHWA has yet to draft a process, but has taken steps toward doing so.
     FHWA developed a Recovery Act Database System to track all Recovery
     Act data, including the key data elements required by Section 1512.
     FHWA described how it plans to validate the data by comparing
     Section 1512 data with prior recipient report data.

    FRA and MARAD have yet to draft processes but stated that they plan to
     modify other Operating Administration’s processes for such use.

Operating Administrations plan to have processes in place by October 22, 2009—
in time to conduct limited data quality reviews, as required by OMB. Department
officials stated that once completed, they expect the Operating Administrations
will continue to revise the review processes based on lessons learned during the
initial data quality reviews (e.g., October 2009). Further, based on recipient
reports and data quality review results, Operating Administration officials told us
they could withhold funds of recipients who have systemic or chronic reporting
problems.

Based on the results of our work to date, it is too early to determine whether the
Operating Administration processes will adequately identify and remediate
omissions and significant reporting errors. Consequently, we are making no
recommendations. As we continue to conduct our Recovery Act work, we will
monitor the Operating Administrations’ progress, and may conduct additional
work of the adequacy of Operating Administrations’ and recipients’ internal
control procedures for ensuring data quality.

AGENCY COMMENTS AND OFFICE OF INSPECTOR
GENERAL RESPONSE
We provided our draft report to the Department on September 29, 2009. The
Department provided several technical comments that it characterized as minor.
We incorporated these comments in the final report as appropriate.

We appreciate the courtesies and cooperation of Department representatives
during this audit. If you have any questions concerning this report, please call me
at (202) 366-1959, or Madeline Chulumovich, Special Assistant for Economic
Recovery, at (202) 366-6512.

                                        #

cc: Members of the DOT TIGER team
                                                                                                          5




EXHIBIT A. OBJECTIVES, SCOPE, AND METHODOLOGY
The objective of this audit was to determine whether the Department had
established a consistent process to perform limited data quality reviews intended
to identify material omissions and/or significant reporting errors and notify
Recovery Act recipients of the need to make appropriate and timely changes. To
address our audit objective, we conducted expeditious reviews of the
Department’s and each relevant Operating Administration’s plans for establishing
internal controls to conduct limited data quality reviews of information submitted
by Recovery Act recipients to ensure the data are accurate, complete, and timely.

Specifically, we:

           coordinated with the Recovery Accountability and Transparency Board5
            and Office of Inspectors General at Health and Human Services,
            Agriculture, and National Endowment for the Arts to develop a
            structured review guide that included the audit objective, scope, and
            audit approach;

           interviewed officials from the Office of the Secretary of Transportation
            (OST) and each Operating Administration receiving Recovery Act
            Funds—FAA, FHWA, FRA, FTA, and MARAD—to obtain an
            overview of the actions taken to date to develop, document, and
            implement internal controls for performing limited data quality reviews
            of Recovery Act recipient data pursuant to Section 1512 of the
            Recovery Act and OMB Memorandum M-09-21; and

           obtained and analyzed, when available, Department and Operating
            Administration documentation of policies and procedures for reviewing
            quarterly Recovery Act data pursuant to OMB Memorandum M-09-21
            (Section 3.12).


Because the Department’s Operating Administrations have yet to complete their
documentation for conducting data quality reviews to identify multiple omissions
and significant reporting errors, we could not evaluate the effectiveness of the
methodology the Operating Administrations used to conduct their reviews. Also,
5
    The Recovery Accountability and Transparency Board was created by the American Recovery and
    Reinvestment Act of 2009 with two goals: (1) to provide transparency in relation to the use of Recovery-
    related funds, and (2) to prevent and detect fraud, waste, and mismanagement. Twelve Inspectors
    General from various Federal agencies serve with Chairman Earl E. Devaney. The Board issues
    quarterly and annual reports to the President and Congress, and if necessary, “flash reports” on matters
    that require immediate attention.


Exhibit A. Objective, Scope, and Methodology
                                                                                   6


the first quarter data quality reviews will not include the Office of the Secretary’s
discretionary grants or the Federal Railroad Administration’s high speed rail
grants because no funds have been obligated.

We conducted this performance audit in September 2009 in accordance with
Generally Accepted Government Auditing Standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Exhibit A. Objective, Scope, and Methodology
